No. 20-1114
IN THE

Supreme Court of the United States
AMERICAN HOSPITAL ASSOCIATION, et al.,
Petitioners,
v.
XAVIER BECERRA, in his official capacity as
Secretary of Health and Human Services, et al.,
Respondents.
On Writ of Certiorari to
the U.S. Court of Appeals
for the District of Columbia Circuit
BRIEF OF THE NEW CIVIL LIBERTIES ALLIANCE
AS AMICUS CURIAE IN SUPPORT OF PETITIONERS

September 10, 2021

Richard A. Samp
(Counsel of Record)
Kara Rollins
Mark Chenoweth
New Civil Liberties Alliance
1225 19th St. NW, Suite 450
Washington, DC 20036
(202) 869-5210
rich.samp@ncla.legal

QUESTIONS PRESENTED
Amicus curiae addresses only the second of the
two Questions Presented:
Whether the court of appeals properly applied
Chevron deference to the Department of Health and
Human Services’ (HHS) interpretation of 42 U.S.C.
§ 1395l(t)(14)(A)(iii)(II), and thereby permitted HHS to
set Medicare reimbursement rates for specified covered
outpatient drugs based on acquisition cost and vary
such rates by hospital group, when HHS has not
collected required hospital acquisition cost survey data.

iii

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . v
INTERESTS OF AMICUS CURIAE . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 2
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 6
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
I.

HHS’S INTERPRETATION OF THE DISPUTED
STATUTE IS NOT ENTITLED TO CHEVRON
DEFERENCE. . . . . . . . . . . . . . . . . . . . . . . . . . . 10
A.

Chevron Step One Requires Courts
to Closely Examine Text and
Context to Determine Whether a
Statute Is Truly Ambiguous. . . . . . . . 10

B.

The Appeals Court Improperly
Truncated Its Statutory Analysis
after Concluding that the
Constructions Offered by Both
S i d e s R a i s ed I n t e r p r et i v e
Dilemmas . . . . . . . . . . . . . . . . . . . . . . 14

C.

Kisor’s Limitations on Auer
Deference Are Fully Applicable to
Chevron Deference . . . . . . . . . . . . . . . 19

iv

Page
II.

CHEVRON DEFERENCE S HOULD BE
ABANDONED ALTOGETHER BECAUSE IT
VIOLATES THE CONSTITUTION. . . . . . . . . . . . . 21
A.

Agency Deference Violates Article
III by Requiring Judges to
Abandon Their Duty of
Independent Judgment. . . . . . . . . . . . 21

B.

Agency Deference Violates Due
Process by Requiring Judges to
Bias Their Decisions in Favor of
One Party . . . . . . . . . . . . . . . . . . . . . . 23

C.

The Propriety of Chevron
Deference Is Being Questioned
with Increasing Frequency by
Federal Courts . . . . . . . . . . . . . . . . . . 25

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

v

TABLE OF AUTHORITIES
Page(s)
Cases:
Ali v. Federal Bureau of Prisons,
522 U.S. 214 (2008) . . . . . . . . . . . . . . . . . . . . . . . . 15
Arangure v. Whitaker,
911 F.3d 333 (6th Cir. 2018). . . . . . . . . . . . . . . . . 11
Babb v. Wilkie,
140 S. Ct. 1168 (2020) . . . . . . . . . . . . . . . . . . . . . . 26
Baldwin v. United States,
140 S. Ct. 690 (2020) . . . . . . . . . . . . . . . . . . . . . 8, 26
Caperton v. A.T. Massey Coal Co.,
556 U.S. 868 (2009) . . . . . . . . . . . . . . . . . . . . . . . . 24
Chevron, U.S.A., Inc. v. Natural Resources
Defense Council, 467 U.S. 837 (1984) . . . . . . passim
City of Arlington v. FCC,
569 U.S. 290 (2013) . . . . . . . . . . . . 10, 11, 19, 20, 27
Corley v. United States,
556 U.S. 303 (2009) . . . . . . . . . . . . . . . . . . . . . . . . 16
Cuozzo Speed Technologies, LLC v. Lee,
136 S. Ct. 2131 (2016) . . . . . . . . . . . . . . . . . . . . 9, 26
EPIC Systems Corp. v. Lewis,
138 S. Ct. 1612 (2018) . . . . . . . . . . . . . . . . . . . . . . 20
Fort Stewart Schools v. FLRA,
495 U.S. 641 (1990) . . . . . . . . . . . . . . . . . . . . . . . . 16
Gutierrez-Brizuela v. Lynch,
834 F.3d 1142 (10th Cir. 2016) . . . . . . . . . 8, 26, 27
King v. Mississippi Military Dep’t,
245 So.3d 404 (Miss. 2018) . . . . . . . . . . . . . . . . . . 22
Kisor v. Wilkie,
139 S. Ct. 2400 (2019) . . 7, 12, 13, 14, 19, 20, 21, 28
Marbury v. Madison,
5 U.S. (1 Cranch) 137 (1803) . . . . . . . . . . . 7, 11, 21

vi

Page(s)
Masterpiece Cakeshop, Ltd. v. Colorado Civil
Rights Comm’n,138 S. Ct. 1719 (2018). . . . . . . . . 24
Microsoft Corp. v. i4i Limited Partnership,
564 U.S. 91 (2011) . . . . . . . . . . . . . . . . . . . 15, 17, 18
Nat’l Ass’n of Home Builders v. Defenders of
Wildlife [“NAHB”], 551 U.S. 644 (2007) . . . . . . . . 17
Oregon Restaurant and Lodging Ass’n v. Perez,
843 F.3d 355 (9th Cir. 2016). . . . . . . . . . . . . . . . . 12
Pauley v. Bethenergy Mines, Inc.,
501 U.S. 680 (1991) . . . . . . . . . . . . . . . . . . . . . . . . 13
Pereira v. Sessions,
138 S. Ct. 2105 (2018) . . . . . . . . . . . . . . . . . . . . . . 27
SAS Institute, Inc. v. Iancu,
138 S. Ct. 1348 (2018) . . . . . . . . . . . . . . . . . . . 20, 25
Tetra Tech EC, Inc. v. Wisconsin Dep’t of Revenue,
914 N.W.2d 21 (Wis. 2018) . . . . . . . . . . . . . . . 22, 24
United States v. Mead Corp.,
533 U.S. 218 (2001) . . . . . . . . . . . . . . . . . . . . . . . . 20
United States v. Dickson,
40 U.S. 141 (1841) . . . . . . . . . . . . . . . . . . . . . . 22, 23
Utility Air Regulatory Group v. EPA,
573 U.S. 302 (2014) . . . . . . . . . . . . . . . . . . . . . . . . 18
Valent v. Comm’r of Social Security,
918 F.3d 516 (6th Cir. 2019). . . . . . . . . . . . . . . . . . 2

Statutes and Constitutional Provisions:
U.S. Const., Art. III . . . . . . . . . . . . . . . . . . . . . . 21, 22
U.S. Const., Amend. V (Due Process Clause) . 2, 9, 24

vii

Page(s)
42 U.S.C. § 1395l(t)(14)(A)(iii)(I)
(“Subclause I”) . . . . . . . . . . . . . . . . . . . 3, 5, 6, 16, 18
42 U.S.C. § 1395l(t)(14)(A)(iii)(II)
(“Subclause II”) . . . . . . . . . . . . . . . . . . . . . . . passim
42 U.S.C. § 1395l(t)(14)(E) . . . . . . . . . . . . . 4, 5, 14, 15

Miscellaneous:
The Federalist No. 47 (James Madison) . . . . . . . . . 26
Abbe R. Gluck & Richard A. Posner, Statutory
Interpretation on the Bench: A Survey of Forty-Two
Judges on the Federal Courts of Appeals,
131 Harv. L. Rev. 1298, 1312-13 (2018). . . . . . . . . 9
Philip Hamburger, Chevron Bias,
84 Geo. Wash. L. Rev. 1187 (2016). . . . . . . . . . . . 22

INTERESTS OF AMICUS CURIAE
The New Civil Liberties Alliance (NCLA) is a
nonpartisan, nonprofit civil-rights organization
devoted to defending constitutional freedoms from
violations by the administrative state.1 The “civil
liberties” of the organization’s name include rights at
least as old as the U.S. Constitution itself, such as jury
trial, due process of law, the right to be tried in front of
an impartial and independent judge, and the right to
live under laws made by the nation’s elected
lawmakers through constitutionally prescribed
channels. Yet these self-same rights are also very
contemporary—and in dire need of renewed
v i ndi c a t i o n — p r e c i s e l y b e c a u s e C o n g res s,
administrative agencies, and even sometimes the
courts have neglected them for so long.
NCLA aims to defend civil liberties—primarily
by asserting constitutional constraints on the
administrative state. Although Americans still enjoy
the shell of their Republic, there has developed within
it a very different sort of government—a type, in fact,
that the Constitution was designed to prevent. This
unconstitutional administrative state within the
Constitution’s United States is the focus of NCLA’s
concern.

1

Pursuant to Supreme Court Rule 37.6, NCLA states that
no counsel for a party authored this brief in whole or in part; and
that no person or entity, other than NCLA and its counsel, made
a monetary contribution intended to fund the preparation and
submission of this brief. All parties have consented to the filing.

2
NCLA is particularly disturbed by the appeals
court’s decision not to exercise its independent
judgment regarding the best reading of the statute at
issue in this case but rather to defer to the
interpretation espoused by the U.S. Department of
Health and Human Services (HHS)—one of the parties
to this proceeding. The court asserted that deference
was warranted because the statute did not “directly
foreclose” HHS’s construction. Pet. App. 19a. But this
Court has required far more exacting scrutiny of a
statute before determining that a federal agency’s
construction is permissible. In failing to undertake
that exacting scrutiny, the appeals court exhibited an
all-too-frequent tendency: the lower federal courts
“have become habituated to defer to the interpretive
views of executive agencies, not as a matter of last
resort but first.” Valent v. Comm’r of Social Security,
918 F.3d 516, 525 (6th Cir. 2019) (Kethledge, J.,
dissenting).
NCLA is also concerned by the serious
constitutional infirmities that infected the proceedings
below. By deferring to HHS’s construction of the
contested statute under Chevron, U.S.A., Inc. v.
Natural Resources Defense Council, 467 U.S. 837
(1984), the appeals court abandoned its duty of
independent judgment and biased its ruling in favor of
one of the parties—the most powerful of parties—in
violation of the Fifth Amendment’s Due Process
Clause.
STATEMENT OF THE CASE
The facts of this case are largely undisputed.
Petitioners (“the Hospitals”) are entitled to Medicare

3
reimbursement from HHS for specific covered
outpatient drugs (“SCODs”) provided to their patients.
All agree that, under the facts of this case, HHS must
establish reimbursement rates using the criteria set
forth in 42 U.S.C. § 1395l(t)(14)(A)(iii)(II) (hereinafter,
“Subclause II”).
The statute states that the
reimbursement rate for each SCOD “shall” be “the
average price for the drug ... as calculated and
adjusted” by HHS. Ibid. The “average price” for each
SCOD is not in dispute; all agree that a drug’s default
“average price” equals 106% of its “average sales price”
(ASP). Before HHS began making “adjustments” to
average price in 2017, it generally set a reimbursement
rate of ASP plus six percent.
HHS changed its methodology in 2017. While
the reimbursement rate for most hospitals continues to
be ASP plus six percent, HHS invoked its
“adjust[ment]” authority to establish a significantly
lower reimbursement rate (ASP minus 22.5 percent)
for one group of hospitals: Section 340B hospitals, a
group that includes Petitioners. HHS justified the
lower rate by pointing to the significantly reduced drug
acquisition costs faced by Section 340B hospitals. It
asserted that Subclause II authorized it to “adjust[ ]”
reimbursement rates by substituting acquisition costs
for average price.
The Hospitals challenged the new rates,
asserting that if HHS wishes to base rates on
acquisition costs, it must do so under 42 U.S.C.
§ 1395l(t)(14)(A)(iii)(I) (hereinafter, “Subclause I”).
The Hospitals assert that HHS has not met one of the

4
prerequisites for invoking Subclause I2 and thus may
not rely on that statutory provision.
The district court granted the Hospitals’ motion
for a permanent injunction against HHS and ordered
supplemental briefing on the question of a proper
remedy. Pet. App. 44a-86a. The court later expanded
its ruling to include HHS’s reimbursement rates for
2019 as well as 2018, and it remanded the case to HHS
to decide in the first instance how best to proceed. Id.
at 87-112.
A divided D.C. Circuit panel reversed, upholding
HHS’s decision to lower drug reimbursement rates for
Section 340B hospitals. Pet. App. 1a-43a. The
majority held that HHS’s decision “rests on a
reasonable interpretation of the Medicare statute.” Id.
at 2a.
Notably, the panel majority did not hold that
HHS’s construction of Subclause II is the best
interpretation of the statute. Although conceding that
the Hospitals’ statutory construction arguments were
“not without force,” the court was “ultimately
unpersuaded” because, “[f]or the Hospitals’ argument
to carry the day under Chevron, we would need to
conclude that Congress unambiguously barred HHS
from seeking to align reimbursement with acquisition
2

HHS is authorized to calculate a drug’s reimbursement
rate based on its “average acquisition cost” under Subclause I only
if, among other things, HHS has undertaken a “hospital
acquisition cost survey” that meets the exacting requirements of
42 U.S.C. § 1395l(t)(14)(E). HHS did not undertake any such
survey before establishing the rates at issue here.

5
costs under subclause (II), or that HHS’s belief that it
could do so was unreasonable.” Id. at 24a.
The majority tacitly conceded the Hospitals’
contention that HHS’s broad interpretation of its
Subclause II adjustment authority would deprive
Subclause I of independent significance, stating:
As the Hospitals see it, if HHS wants to
set SCOD rates based on the cost to
hospitals to acquire the drugs, the agency
must get the [robust study] data
contemplated by subclause (I). If it were
otherwise, the Hospitals contend,
subclause (I)’s requirement to take into
account the data collected under
subparagraph (D) would be meaningless:
HHS could simply forgo the study
required by subclause (I) and instead use
subclause (II) to approximate drug
acquisition costs.
Id. at 23a-24a. But the majority held that the anomaly
created by HHS’s interpretation of its adjustment
authority did not undermine the agency’s proposed
construction of Subclause II, asserting that “the
Hospitals’ own reading raises a similar interpretive
dilemma.” Id. at 24a. The majority noted that under
the Hospitals’ reading, HHS’s adjustment authority
under Subclause II is limited to “adjustments to
account for overhead costs.” Id. at 25a. According to
the majority, this construction creates an interpretive
dilemma because it “would leave subclause (II)’s
adjustment authority duplicative of authority already
conferred by [42 U.S.C. § 1395l(t)(14)(E )].” Ibid.

6
The court declined to credit arguments that “any
superfluity occasioned by [the Hospitals’] reading is
less substantial than the superfluity occasioned by the
agency’s reading.” Pet. App 27a. It held that “even
assuming there is a reliable metric for comparing
degrees of superfluity across readings in that fashion,
that kind of comparison is not the stuff of a Chevron
step one resolution.” Ibid. Rather, the court held,
“when competing readings of a statute would each
occasion their own notable superfluity across readings
in that fashion, that manifests the kind of statutory
ambiguity that Chevron permits the agency to weigh
and resolve.” Ibid.
Judge Pillard dissented. Pet. App. 31a-43a. She
construed Subclause I as imposing a strict limit on
HHS’s authority to base reimbursement rates on a
hospital’s acquisition costs: HHS could not do so unless
it first conducted a detailed survey of actual costs. Id.
at 33a-34a.
She concluded that HHS’s broad
construction of its Subclause II adjustment authority
was an unwarranted “circumvention of subclause (I).”
Id. at 34a. She stated that Subclause II’s use of the
word “adjust[ment]” indicates that HHS is authorized
to make “moderate” changes to average sales price
when setting reimbursement rates, not the major 30%
change adopted by HHS here. Id. at 38a. She
concluded, “I would therefore hold that the agency’s
interpretation of subclause (II) is foreclosed at Chevron
step one.” Id. at 32a.
SUMMARY OF ARGUMENT
NCLA agrees with the Hospitals that the HHS’s
authority under Subclause II to “adjust[ ]” average

7
sales price when calculating reimbursement rates does
not include wholesale authority to substitute
acquisition costs for average sales price. The appeals
court should thus have ended its analysis of the
Hospitals’ claims no later than at Chevron step one.
NCLA writes separately to focus on the
improperly truncated nature of the appeals court’s
Chevron analysis. The court concluded that HHS’s
statutory construction was entitled to Chevron
deference because it was “reasonable” and was not
“directly foreclosed” by the statutory language. Pet.
19a. But the court’s novel “directly foreclosed” test
assures that virtually any agency statutory
interpretation can survive Chevron step one scrutiny.
While Subclause II does not “directly” foreclose a claim
that the authority granted HHS to “adjust[ ]”
reimbursement rates includes the authority to
substitute acquisition cost for average sales price, a
similar observation could be made with respect to
virtually any statute whose application to a specific
factual scenario is in dispute. If courts grant Chevron
deference any time an agency’s statutory construction
is not expressly foreclosed by the statute at issue, they
have abandoned their constitutional “duty … to say
what the law is.” Marbury v. Madison, 5 U.S. 137, 177
(1804).
As this Court has repeatedly stressed, deference
to agency interpretations is warranted only when a
statute or regulation is “genuinely ambiguous”; “[a]nd
when we use that term, we mean it—genuinely
ambiguous, even after a court has resorted to all the
standard tools of interpretation.” Kisor v. Wilkie, 139
S. Ct. 2400, 2414 (2019). Those standard tools of

8
interpretation are most needed when, as here, the text
of the statute does not “directly” answer the question
posed by a lawsuit.
The appeals court concluded that the standard
tools of statutory construction provide at least some
support for both sides. Pet. App. 24a-27a. But rather
than proceeding further with its analysis and
determining which side had the stronger arguments,
the court simply threw up its hands and declared,
“when competing readings of a statute would each
occasion their own notable superfluity, that manifests
the kind of statutory ambiguity that Chevron permits
the agency to weigh and resolve.” Id. at 27a. No,
competing readings do not manifest any such thing. On
the contrary, that sort of wholesale abdication of
judicial decision-making responsibility conflicts
sharply with this Court’s teachings regarding the scope
of Chevron deference.
Quite apart from the appeals court’s
misapplication of Chevron, there are sound reasons for
declining to apply Chevron deference in this or any
other case. The doctrine has been subject to increasing
criticism in recent years from both judges and legal
commentators. They have pointed out that Chevron
deference compels judges to abandon their duties of
independent judgment, thereby undermining
separation-of-powers principles. See, e.g., Baldwin v.
United States, 140 S. Ct. 690 (2020) (Thomas, J.,
dissenting from denial of certiorari); Gutierrez-Brizuela
v. Lynch, 834 F.3d 1142, 1153 (10th Cir. 2016)
(Gorsuch, J., concurring). More than five years have
elapsed since the Court last relied on Chevron

9
deference to uphold an agency’s interpretation of a
federal statute. See Cuozzo Speed Technologies, LLC
v. Lee, 136 S. Ct. 2131 (2016).
Moreover, when (as is always true in cases
involving Medicare reimbursement claims) the
government is a party to the case, Chevron requires
judges to favor the government’s interpretation. That
is, it tells judges to exhibit systematic bias in favor of
one of the parties—the most powerful of parties. Such
judicial bias in court proceedings violates the Fifth
Amendment’s Due Process Clause.
The Court should reverse the decision below.
The D.C. Circuit declared Subclause II ambiguous and
granted Chevron deference to HHS’s construction
without first engaging in the thorough analysis of the
statute required by this Court’s precedents. Had it
done so, it would have concluded that Subclause II
precludes HHS from basing reimbursement rates on
the Hospitals’ estimated acquisition costs. NCLA
urges the Court to go further—to call into question the
constitutional underpinnings of Chevron and express
a willingness to consider overruling Chevron in a
future case. It is particularly appropriate to do that in
a case emanating from the D.C. Circuit because that
court is especially apt to rely on Chevron deference.
See Abbe R. Gluck & Richard A. Posner, Statutory
Interpretation on the Bench: A Survey of Forty-Two
Judges on the Federal Courts of Appeals. 131 Harv. L.
Rev. 1298, 1312-13 (2018).

10
ARGUMENT
I.

HHS’S INTERPRETATION OF THE DISPUTED
STATUTE IS NOT ENTITLED TO CHEVRON
DEFERENCE

NCLA agrees with the Hospitals that HHS’s
authority under Subclause II to “adjust[ ]” average
sales price when calculating reimbursement rates does
not include authority to substitute acquisition costs for
average sales price. NCLA writes separately to focus
on the improperly truncated nature of the appeals
court’s Chevron analysis. Had the appeals court
undertaken the comprehensive statutory analysis
required by this Court’s Chevron case law, any doubt
that Subclause II barred HHS’s use of acquisition costs
in determining reimbursement rates would have been
quickly eliminated.
A. Chevron Step One Requires Courts to
Closely Examine Text and Context to
Determine Whether a Statute Is Truly
Ambiguous
If an agency interpretation is the sort to which
Chevron applies, the Court has established a two-step
process for determining whether to defer to that
interpretation. At Chevron step one, a reviewing court,
“applying the ordinary tools of statutory construction,”
must determine whether the meaning of the disputed
statute is clear. City of Arlington v. FCC, 569 U.S. 290,
296 (2013). If so, “that is the end of the matter; for the
court, as well as the agency, must give effect to the
unambiguously expressed intent of Congress.” Ibid.

11
(quoting Chevron, 467 U.S. at 842-843). But if the
statutory text is “ambiguous with respect to the
specific issue, the question for the court [at step two] is
whether the agency’s answer is based on a permissible
construction of the statute.” Ibid. (quoting Chevron at
843).
In many instances, lower federal courts brush
past Chevron step one, concluding after a perfunctory
analysis that the disputed statute is ambiguous before
proceeding at step two to defer to a federal agency’s
interpretation of the statute. As the Sixth Circuit
candidly recognized, “[A]ll too often, courts abdicate
[their] duty [to say what the law is] by rushing to find
statutes ambiguous, rather than performing a full
interpretive analysis.” Arangure v. Whitaker, 911 F.3d
333, 336 (6th Cir. 2018). Such abdication is “all the
more tempting” in the Chevron context because
“ambiguity means courts get to outsource [their]
‘emphatic’ duty [to say what the law is] by deferring to
an agency’s interpretation.” Ibid. (quoting Marbury, 5
U.S. at 177).
The court below engaged in a perfunctory
analysis of just that sort before concluding that
Subclause II is ambiguous and proceeding to Chevron
step two. Rather than beginning its analysis by
attempting to discern the best interpretation of
Subclause II, the appeals court placed a thumb on
HHS’s side of the scale: it asked whether HHS’s
construction was “directly foreclosed” by the statute.
Pet. App. 19a. It stated, “If the statute does not
directly foreclose HHS’s understanding, we defer to the
agency’s reasonable interpretation,” and held that

12
HHS’s interpretation “is not directly foreclosed and is
reasonable.” Ibid.
The D.C. Circuit’s novel “directly foreclosed” test
finds no support in this Court’s Chevron case law. The
Court has stressed the importance of undertaking an
“exhaust[ive]” application of all “traditional tools” of
statutory construction before concluding that a statute
or regulation “is genuinely ambiguous.” Kisor, 139 S.
Ct. at 2415 (citing Chevron, 467 U.S. at 843 n.9). If,
after applying those traditional tools, a court concludes
that a statute forecloses an agency’s construction, it is
irrelevant whether it does so “directly” or “indirectly.”
In either instance, the court may not defer to the
agency’s interpretation. Applying Chevron deference
except where Congress has “directly” foreclosed the
agency’s interpretation reads far too much into
statutory silence. See Oregon Restaurant and Lodging
Ass’n v. Perez, 843 F.3d 355, 362 (9th Cir. 2016)
(O’Scannlain, J., joined by nine other judges,
dissenting from denial of rehearing en banc) (decrying
the “radical idea that an agency can regulate whatever
it wants until Congress says out loud it must stop”).
The appeals court’s assertion that statutes are
ambiguous unless they “directly” foreclose the agency’s
construction—an assertion adopted in none of this
Court’s opinions—virtually assured that it would find
Subclause II ambiguous and proceed to Chevron step
two. Subclause II does not define the word “adjusted”
and thus does not “directly” state that the authority
granted HHS to “adjust[ ]” reimbursement rates does
not include the authority to substitute acquisition cost
for average sales price. But the “traditional tools” of

13
statutory construction have been developed precisely
because statutes rarely “directly” address the myriad
disputes that can arise over their meaning.
Those tools are often successfully employed to
discern a single, best construction of the statute.
Kisor, 139 S. Ct. at 2415 (noting that “hard
interpretive conundrums, even relating to complex
rules, can often be solved” and that ambiguity does not
exist “merely because ‘discerning the only possible
interpretation requires a taxing inquiry’”) (quoting
Pauley v. Bethenergy Mines, Inc., 501 U.S. 680, 707
(1991) (Scalia, J., dissenting)). Yet in taking its
directly-foreclosed shortcut, the appeals court
disregarded Kisor’s admonition that “a court cannot
wave the ambiguity flag just because it found the
regulation,” or statute, ambiguous “at first read.” Ibid.
As Petitioners’ brief explains in detail, a closer
read of Subclause II than the one undertaken by the
D.C. Circuit demonstrates that Congress did not
authorize HHS to utilize acquisition costs as its basis
for setting reimbursement rates under that statute.
Pet. Br. 31-46. The Court should hold that HHS’s
interpretation of Subclause II is foreclosed at Chevron
step one. But it should also point out the appeals
court’s mistaken approach that caused it to conclude
erroneously that Subclause II is ambiguous: the court
reached that conclusion by mistakenly holding that a
statute is ambiguous and does not foreclose an agency
interpretation so long as it does not do so “directly.”

14
B. The Appeals Court Improperly Truncated
Its Statutory Analysis after Concluding
that the Constructions Offered by Both
Sides Raised Interpretive Dilemmas
The principal step-one shortcut employed by the
appeals court in its analysis of Subclause II arose in
connection with its (erroneous) conclusion that the
Hospitals’ proffered statutory construction created an
“interpretive dilemma.” Pet. App. 24a. The majority
concluded that the “adjust[ment]” authority granted to
HHS by Subclause II would be redundant if the word
“adjusted” were interpreted as proposed by the
Hospitals—it supposedly would grant HHS no more
authority than it also possessed under 42 U.S.C.
§ 1395l(t)(14)(E). Although recognizing that HHS’s
proffered construction also raised interpretive
dilemmas, the court held that the mere existence of the
competing dilemmas precluded further comparison of
the strengths of the two arguments. Id. at 27a. Faced
with this issue, the court simply threw up its hands
and declared:
that kind of comparison is not the stuff of
a Chevron step one resolution. Rather,
when competing readings of a statute
would occasion their own notable
superfluity, that manifests the kind of
statutory ambiguity that Chevron
permits the agency to weigh and resolve.
Ibid. That holding directly conflicts with Kisor’s
teaching that a statute cannot be deemed “genuinely
ambiguous” until “after a court has resorted to all the

15
standard tools of interpretation.” 139 S. Ct. at 2414
(emphasis added).
Had the D.C. Circuit “resorted to all the
standard tools of interpretation,” it would have
ascertained that the interpretive dilemma allegedly
created by the Hospitals’ proffered construction of
Subclause II (if it exists at all) is extremely minor and
is minuscule when compared with the problems
created by HHS’s construction. The Hospitals assert
that Subclause II authorizes HHS to “adjust”
reimbursement rates for several reasons, including to
account for overhead costs.
The appeals court
responded that overhead-cost adjustment authority is
already granted by 42 U.S.C. § 1395l(t)(14)(E) and thus
that, under the Hospitals’ interpretation, the
Subclause II grant of authority to “adjust” rates is a
redundancy. Pet. App. 25a. The Hospitals’ opening
brief convincingly rebuts that charge; it demonstrates
that Subclause II authorizes a wider array of overhead
adjustments than does § 1395l(t)(14)(E). Pet. Br. 4445.
Moreover, a statutory construction is not
necessarily to be avoided simply because it creates
redundancy. Congress regularly inserts redundant
language in a statute to ensure that its intent is not
misunderstood. Thus, in Ali v. Federal Bureau of
Prisons, 552 U.S. 214, 226 (2008), the Court rejected a
“rule against superfluities” objection to its construction
of a federal statute, ruling that “Congress may have
simply intended to remove any doubt that [certain
officials] were included in ‘law enforcement officer[s]’”
by saying so twice. See also Microsoft Corp. v. i4i
Limited Partnership, 564 U.S. 91, 106 (2011) (stating

16
that “[t]here are times when Congress enacts
provisions that are superfluous”) (quoting Corley v.
United States, 556 U.S. 303, 325 (2009) (Alito, J.,
dissenting)); Fort Stewart Schools v. FLRA, 495 U.S.
641, 646 (1990) (noting that “technically unnecessary”
examples in a statute may have been “inserted out of
an abundance of caution”).
More importantly, the appeals court’s
competing-interpretive-dilemmas holding improperly
assumes that all such dilemmas should be assigned
equal weight when determining whether a statute is
too ambiguous to permit resolution at Chevron step
one. That assumption is demonstrably incorrect with
respect to the parties’ competing interpretations of
Subclause II.
HHS’s proposed interpretation does far more
than simply create a redundancy. Rather, it totally
obliterates Subclause I. The evident purpose of
Subclause I is to ensure that whenever reimbursement
rates for SCODs are to be based on acquisition costs,
HHS must collect the acquisition-cost data in
conformity with the detailed procedural requirements
set out in Subclause I. Congress did not want HHS to
establish rates under Subclause I unless the agency
went the extra mile to ensure the accuracy of its
acquisition-cost data. As Judge Pillard points out in
her dissent, HHS’s interpretation of the Subclause II
adjustment authority as authorizing HHS to substitute
acquisition cost for average price is nothing less than
an unwarranted “circumvention” of Subclause I’s
detailed data-collection requirements. Pet. App. 34a.
Moreover, as she also pointed out, HHS’s
interpretation of Subclause II requires ascribing to the

17
word “adjusted” a definition far broader than its
commonly understood meaning; it normally connotes a
relatively modest change, not the wholesale revision
effected by HHS. When attempting to ascertain the
proper construction of Subclause II at Chevron step
one, much more weight should be assigned to those
factors than to HHS’s evidence of the supposed
superfluity created by the Hospitals’ construction.
To support its novel competing-interpretivedilemmas holding, the D.C. Circuit cited this Court’s
decision in Nat’l Ass’n of Home Builders [“NAHB”] v.
Defenders of Wildlife, 551 U.S. 644, 666 (2007). NAHB
is wholly inapposite. It involved a provision of the
Endangered Species Act that, if read broadly, would
have implicitly abrogated or repealed numerous other
federal statutes. The Court held that “the statutory
language—read in light of the canon against implied
repeals—d[id] not itself provide clear guidance as to
which command must give way,” and thus that the
statute’s clear meaning could not be determined at
Chevron step one. Ibid. The canon against implied
repeals has absolutely no role to play in determining
the proper construction of Subclause II.
In support of the appeals court’s holding, HHS
cites dicta in a patent case, in which the Court stated
that “the canon against superfluity assists only where
a competing interpretation gives effect to every clause
and word in a statute.” Resp. Opp. Br. at 20-21
(quoting i4i, 564 U.S. at 106 (citation omitted)). Read
in context, the quoted language provides no support for
the decision below. At issue in i4i was the federal
statute that imposes on a patent infringement

18
defendant the burden of establishing patent invalidity;
the parties disputed whether the statute required the
invalidity defense to be proven by clear and convincing
evidence. In urging adoption of a lower standard of
proof, Microsoft (the defendant) argued that the
plaintiffs’ proffered interpretation rendered
superfluous other language in the Patent Act. The
Court rejected that argument, noting that Microsoft’s
interpretation also resulted in quite similar
redundancies. Ibid.
The language cited by HHS, which appears in no
other decisions of this Court, simply indicates that a
proposed construction of a statute will not be rejected
based on the canon against superfluity if all other
proposed constructions create similar superfluities.
But as explained above, the Hospitals’ objections to
HHS’s proposed construction go far beyond a mere
claim that it renders some statutory language
redundant. Rather, the Hospitals have demonstrated
that HHS’s construction constitutes an unwarranted
end-run around restrictions imposed by Subclause I.
HHS supports its construction of Subclause II by
asserting that it serves important policy goals by better
aligning reimbursement rates with a Medicare fund
recipient’s actual acquisition costs. But as Judge
Pillard noted in dissent, “an agency has no power to
‘tailor’ legislation to bureaucratic policy goals by
rewriting unambiguous statutory terms.” Pet. App.
41a (quoting Utility Air Regulatory Group v. EPA, 573
U.S. 302, 325 (2014)).
In sum, the appeals court erred by declaring
Subclause II ambiguous at Chevron step one without

19
first employing all the standard tools of statutory
construction. The court’s stated rationale for failing to
do so conflicts sharply with this Court’s case law.
C. Kisor’s Limitations on Auer Deference Are
Fully Applicable to Chevron Deference
Kisor contains the Court’s most thorough
explanation of the requirement that a court completely
exhaust all tools of construction before concluding that
it cannot discern a single, best reading of a legal
standard. Kisor arose in the context of judicial
deference to an agency’s interpretation of its own
regulations, so-called Auer deference. But the reasons
articulated by the Court in Kisor for cabining judicial
deference to an agency’s legal interpretations apply
just as strongly in the context of statutory
interpretation. NCLA urges the Court to state
explicitly that Kisor applies in both circumstances.
Both Chevron deference and Auer deference are
rooted in a background principle of presumed
congressional intent. When Congress authorizes a
federal agency to administer a federal statute and then
leaves ambiguities in the statute, this Court in at least
some circumstances has presumed that Congress
intends thereby to delegate to the agency authority to
resolve the ambiguity. City of Arlington, 569 U.S. at
296.3
3

Although both forms of deference have been defended
based on a presumed delegation of interpretive authority, there is
considerable reason to doubt that Congress possesses the power
to delegate such authority. The duty to interpret the law rests
with the courts, not Congress, and thus it is not at all clear how

20
If so, then a logical corollary to that rule is that
Congress has not delegated to an agency authority to
construe a statute unless the statute is truly
ambiguous. Thus, when either Chevron or Auer
deference is at issue, Courts must closely examine the
statute to determine whether it is ambiguous; if it is
not, then Congress cannot be presumed to have
delegated authority to construe the statute, and courts
have no justification for deferring to agency
constructions.
Moreover, in explaining the very limited nature
of Auer deference, Kisor repeatedly cited cases
involving Chevron deference. See, e.g., 139 S. Ct. at
2414, 2416 (citing United States v. Mead Corp., 533
U.S. 218 (2001); id. at 2415 (citing Chevron, 467 U.S.
at 843 n.9); id. at 2416 (citing City of Arlington, 569
U.S. at 296).
Most of the Court’s recent Chevron decisions
have included language akin to Kisor’s admonitions
regarding limitations on judicial deference to
administrative agencies’ legal interpretations. See,
e.g., SAS Institute, Inc. v. Iancu, 138 S. Ct. 1348, 1358
(2018) (stating that “[e]ven under Chevron, we owe an
agency’s interpretation of the law no deference unless,
after ‘employing traditional tools of statutory
construction,’ we find ourselves unable to discern
Congress’s meaning”) (quoting Chevron, 467 U.S. at
843 n.9); EPIC Systems Corp. v. Lewis, 138 S. Ct. 1612,
1630 (2018) (similar). Nothing in the Court’s case law
suggests that the standards for applying Chevron
Congress could delegate authority it does not possess.

21
deference differ from those governing Auer deference.
The Court can eliminate any possibility of confusion on
that point by stating explicitly that the standards
articulated in Kisor apply fully in the context of
Chevron deference.
II.

CHEVRON DEFERENCE SHOULD BE
A BANDONED A LTOGETHER B ECAUSE I T
VIOLATES THE CONSTITUTION

Quite apart from the appeals court’s
misapplication of Chevron, there are sound reasons for
declining to apply Chevron deference in this or any
other case. The Chevron doctrine has been subject to
increasing criticism in recent years from both judges
and legal commentators. Those criticisms are well
founded. Chevron is inconsistent with separation-ofpowers and due-process principles embedded in the
Constitution.
A. Agency Deference Violates Article III by
Requiring Judges to Abandon Their Duty
of Independent Judgment
Chief Justice John Marshall famously stated
that it “emphatically” is the constitutional “duty” of
federal judges “to say what the law is.” Marbury v.
Madison, 5 U.S. at 177. But judges who apply Chevron
deference are abandoning that duty by issuing
judgments that assign controlling weight to a nonjudicial entity’s interpretation of a statute.
To be clear, there is nothing wrong or
constitutionally problematic when a court considers an

22
agency’s interpretation and gives it weight according to
its persuasiveness. See, e.g., Tetra Tech EC, Inc. v.
Wisconsin Dep’t of Revenue, 914 N.W.2d 21, 53 (Wis.
2018) (noting that “administrative agencies can
sometimes bring unique insights to the matters for
which they are responsible” but that “does not mean
we should defer to them”). “‘[D]ue weight’ means
‘respectful, appropriate consideration to the agency’s
views’ while the court exercises its independent
judgment in deciding questions of law”—due weight “is
a matter of persuasion, not deference.” Id.
But here, the D.C. Circuit held that HHS’s
interpretation of Subclause II is controlling in the
absence of evidence that Congress “directly foreclosed”
that construction—regardless whether a court arrives
at a different interpretation. Several state Supreme
Courts have concluded that such abdication of the
judicial power violates separation-of-powers provisions
in their state constitutions. Tetra Tech, 914 N.W.2d at
50 (concluding that granting deference to an
administrative agency’s statutory interpretation
“deprives the non-government party of an independent
and impartial tribunal,” as required by the Wisconsin
Constitution); King v. Mississippi Military Dep’t, 245
So.3d 404, 408 (Miss. 2018) (stating, “[I]n deciding no
longer to give deference to agency interpretations, we
step fully into the role the Constitution of 1890
provides for the courts and the courts alone, to
interpret statutes.”).
Indeed, until well into the twentieth century this
Court recognized its Article III duty to decide cases
even when the Executive Branch disagrees with the
Court’s statutory interpretation. In United States v.

23
Dickson, 40 U.S. 141, 161 (1841), the Court declined to
defer to a longstanding Treasury Department
interpretation of a federal statute, reasoning that when
the interpretation “is not in conformity to the true
intendment and provisions of the law, it cannot be
permitted to conclude the judgment of a Court of
justice.”
Writing for the Court, Justice Story
explained:
[I]t is not to be forgotten that ours is a
government of laws, and not of men; and
that the judicial department has imposed
upon it, by the constitution, the solemn
duty to interpret the laws, in the last
resort; and however disagreeable that
duty may be, in cases where its own
judgment shall differ from that of other
high functionaries, it is not at liberty to
surrender, or to waive it.
Id. at 162.
B.

Agency Deference Violates Due Process by
Requiring Judges to Bias Their Decisions
in Favor of One Party

A related and even more serious problem with
agency deference is that it requires the judiciary to
display systematic bias in favor of agencies whenever
they appear as litigants.
See generally Philip
Hamburger, Chevron Bias, 84 Geo. Wash. L. Rev. 1187
(2016). It is bad enough that a court would abandon
its duty of independent judgment by deferring to a nonjudicial entity’s interpretation of a statute. But for a
court to abandon its independent judgment in a

24
manner that favors an actual litigant before the court
violates due process.
This Court has held that even the appearance of
potential bias toward a litigant violates the Due
Process Clause. Caperton v. A.T. Massey Coal Co., 556
U.S. 868, 886-87 (2009).
See also Masterpiece
Cakeshop, Ltd. v. Colorado Civil Rights Comm’n, 138
S. Ct. 1719, 1729 (2018) (holding that agency and
judicial proceedings are required to provide “neutral
and respectful consideration” of a litigant’s views free
from hostility or bias); id. at 1734 (Kagan, J.,
concurring) (agreeing that the Constitution forbids
agency or judicial proceedings that are “infected by ...
bias”).
Whenever Chevron is applied in a case in which
the government is a party, the courts are denying due
process by showing favoritism to the government’s
interpretation of the law. See Tetra Tech, 914 N.W.2d
at 50 (prohibiting Chevron deference in the Wisconsin
state courts because its “systematic favor deprives the
non-governmental party of an independent and
impartial tribunal.”). Nonetheless, under agencydeference doctrines, otherwise scrupulous judges who
are sworn to administer justice impartially somehow
feel compelled to remove the judicial blindfold and tip
the scales in favor of the government’s position. This
practice must stop.
Chevron might be defended on the ground that
there are other canons of construction that purport to
stack the deck in favor of a litigant appearing in court
against the government—e.g., the pro-veteran canon,

25
the rule of lenity, and the Indian canon. But in each of
those instances, the opposing litigant is simply asking
the court to resolve an ambiguous statute against the
party that drafted it. By resolving ambiguities against
government drafters, these canons of construction seek
to encourage clear and precise drafting of veteransbenefits statutes, criminal laws, and treaties/statutes
affecting Indians and tribes. They therefore cannot
explain or excuse a practice that weights the scales in
favor of a government litigant—the most powerful of
all parties to appear before a court—and that
commands systematic bias in favor of the government’s
preferred interpretations of federal statutes.
C.

The Propriety of Chevron Deference
Is Being Questioned with Increasing
Frequency by Federal Courts

The Court has not formally abandoned its
commitment to the Chevron deference regime. But the
Court’s recent actions as well as statements by several
justices suggest that its commitment to Chevron is
waning.
Most notably, the number of decisions in which
the Court has relied on Chevron deference to uphold an
agency’s interpretation of a federal statute has
declined dramatically in the past decade. It has issued
no such decision in more than five years.4

4

The Court recently declined to express support for
Chevron’s continued validity, stating merely, “But whether
Chevron should remain is a question we may leave for another
day.” SAS Institute, 138 S. Ct. at 1358.

26
Moreover, the most recent such decision, 2016’s
Cuozzo Speed Technologies, involved a statute that
expressly delegated to an administrative agency
authority to interpret the relevant statute. See 136 S.
Ct. at 2142 (noting that the statute “expressly”
authorized the Patent Office to issue regulations
“governing inter partes review” and that the
challenged Patent Office rule was “a rule that governs
inter partes review”). In other recent cases in which an
administrative agency’s interpretation of a federal
statute was at issue, the Court interpreted the statute
using traditional tools of statutory construction—and
rejected the agency’s interpretation without ever citing
Chevron. See, e.g., Babb v. Wilkie, 140 S. Ct. 1168
(2020).
Individual justices have not hesitated to criticize
deference doctrines. Justice Thomas has opined that
“Chevron compels judges to abdicate the judicial power
without constitutional sanction.” Baldwin, 140 S. Ct.
at 691 (Thomas, J., dissenting from the denial of
certiorari). He warned that “this apparent abdication
by the Judiciary and usurpation by the Executive is
not a harmless transfer of power,” noting that
“Chevron deference undermines the ability of the
Judiciary to perform its checking function on the other
branches.” Id. at 691-92.
Justice Gorsuch has described Chevron as “no
less than a judge-made doctrine for the abdication of
the judicial duty.” Gutierrez-Brizuela v. Lynch, 834
F.3d 1142, 1152 (10th Cir. 2016) (Gorsuch, J.,
concurring). He stated that Chevron concentrates
excessive power in the Executive Branch, and cited

27
James Madison’s warning that “The accumulation of
all powers, legislative, executive, and judiciary, in the
same hands ... may justly be pronounced the very
definition of tyranny.” Id. at 1155 (quoting The
Federalist No. 47 (James Madison)).
Justice Kennedy described as “troubling” the
“reflexive deference” exhibited by some appeals courts
and their apparent “abdication of the Judiciary’s
proper role in interpreting federal statutes.” Pereira v.
Sessions, 138 S. Ct. 2105, 2120 (2018) (Kennedy, J.,
concurring). He stated:
it seems necessary and appropriate to
reconsider, in an appropriate case, the
premises that underlie Chevron and how
courts have implemented that decision.
The proper rules for interpreting statutes
and determining agency jurisdiction and
substantive agency powers should accord
with constitutional separation-of-powers
principles and the function and province
of the Judiciary. See, e.g., Arlington, [569
U.S.] at 312-36 (Roberts, C.J.,
dissenting).
Id. at 2121.
The Court’s 2019 Kisor decision cut back
considerably on the scope of the related Auer-deference
doctrine, which sometimes requires courts to defer to
an administrative agency’s interpretation of its own
regulations. Kisor, 139 S. Ct. 2400. Four concurring
justices would have gone even farther and overruled

28
Auer deference altogether. Id. at 2425 (Gorsuch, J.,
concurring in the judgment).
NCLA urges the Court to go beyond simply
overturning the D.C. Circuit’s invocation of Chevron
deference and its invention of a new directly-foreclosed
test. NCLA urges the Court, in the course of its
opinion, to note the constitutionally problematic nature
of the Chevron doctrine and express a willingness to
consider overruling Chevron in a future case. It should
join Justice Gorsuch in calling for an end to “this
business of making up excuses for judges to abdicate
their job of interpreting the law.” Kisor, 139 S. Ct. at
2426 (Gorsuch, J., concurring in the judgment).
CONCLUSION
The Court should reverse the decision of the
court of appeals.
Respectfully submitted,
Richard A. Samp
(Counsel of Record)
Kara Rollins
Mark Chenoweth
NEW CIVIL LIBERTIES ALLIANCE
1225 19th St. NW, Suite 450
Washington, DC 20036
(202) 869-5210
rich.samp@ncla.legal
Dated: September 10, 2021

